No. 19-882
Supreme Couct of the lnited States

APPLE, INC.,
Petitioner,
Vv.
VIRNETX INC., ET AL.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES CouRT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5, ! certify that I am a member of the Bar of
this Court representing a party on whose behalf service is made, and I served three copies
of the BRIEF OF THE R STREET INSTITUTE, THE ELECTRONIC FRONTIER FOUNDA-
TION, AND ENGINE ADVOCACY AS AMICI CURIAE IN SUPPORT OF THE PETITION in
the above-identified case, upon all parties required to be served. Service was performed

by US. priority mail to counsel of record listed on the following page.

Dated: February 3, 2020

?

R STREET INSTITUTE

 

1212 New York Ave NW Ste 900

Washington DC 20005
(202) 525-5717
eduan@rstreet.org

Counsel for amici curiae
LIST OF PARTIES SERVED

E. JOSHUA ROSENKRANZ

ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd Street.

New York, NY 10019

212-506-5380

jrosenkranz@orrick.com

Counsel for Petitioner Apple Inc.

JEFFREY ALAN LAMKEN

MoLoLAMKEN LLP

The Watergate, Suite 660

600 New Hampshire Ave., N.W.
Washington, DC 20087

2025562010

jlamken@mololamken.com

Counsel for Respondents VirnetX Inc., et al.
